No. 20-1295

In the Supreme Court of the United States
UNITED STATES OF AMERICA, PETITIONER
v.
T IMOTHY ZACHARY GREEN
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

REPLY BRIEF FOR THE PETITIONER

ELIZABETH B. P RELOGAR
Acting Solicitor General
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs @usdoj.gov
(202) 514-2217

In the Supreme Court of the United States
No. 20-1295
UNITED STATES OF AMERICA, PETITIONER
v.
T IMOTHY ZACHARY GREEN
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

REPLY BRIEF FOR THE PETITIONER

Respondent does not dispute that the court of appeals’ decision in this case implicates questions that this
Court is currently considering in Greer v. United States,
No. 19-8709 (argued Apr. 20, 2021). Nor does respondent
dispute that, if the controversy in this case remains live, it
would be appropriate for this Court to hold the petition
for a writ of certiorari pending the Court’s decision in
Greer, and then dispose of the petition as appropriate in
light of that decision. See Resp. Br. in Opp. 7. Instead,
respondent’s sole argument (id. at 3-7) for denial of the
petition is that the case has become moot because the
court of appeals refused to stay the issuance of its mandate, resulting in dismissal of the indictment on remand
in the district court. See Pet. App. 7a (ordering “remand
with instructions to the district court to enter judgment
dismissing this count without prejudice”); C.A. Doc. 57
(Oct. 23, 2020) (denying motion to stay mandate). That
argument—under which the lower courts could frustrate
(1)

2
this Court’s ability to consider a petition for a writ of certiorari unless the Court itself grants emergency relief—is
unsound.
1. This Court has long recognized that a “[p]etitioner’s obedience to the mandate of the Court of Appeals and the judgment of the District Court” implementing that mandate “does not moot [a] case” presented for this Court’s review. Mancusi v. Stubbs, 408
U.S. 204, 206 (1972). In the criminal context specifically, such a case remains live because “reversal of [the
lower court’s] decision would reinstate the judgment of
conviction and the sentence entered by the District
Court.” United States v. Villamonte-Marquez, 462 U.S.
579, 581 n.2 (1983).
A district court’s compliance with a court of appeals’
directive to dismiss an indictment during the time prescribed for seeking a writ of certiorari does not moot a
case because it does not prevent reinstatement of the
conviction and sentence. See Villamonte-Marquez, 462
U.S. at 581 n.2 (“Under [the Court’s] reasoning in Mancusi * * * , the absence of an indictment does not require a contrary conclusion.”) (citation omitted). “[I]t is
settled law that the preliminary steps in a criminal proceeding are ‘merged’ into a sentence once the defendant
is convicted and sentenced.” Ibid. (citation omitted).
Accordingly, a “separate reinstatement of the original
indictment” would be “unnecessary” if this Court were
to vacate the court of appeals’ decision and the court of
appeals were, on remand, to affirm respondent’s conviction and sentence. Ibid.
2. Respondent’s contrary argument rests (Br. in
Opp. 6-7) on Justice Brennan’s dissent in VillamonteMarquez, supra, which in turn rested on this Court’s
decision in Ex parte Bain, 121 U.S. 1 (1887). See

3
Villamonte-Marquez, 462 U.S. at 597-598 & n.5 (Brennan, J., dissenting) (discussing Bain). In Bain, the defendants f iled a demurrer to an indictment; the district
court sustained it; and the court granted the government’s motion to amend the indictment, after which the
court proceeded with the case. 121 U.S. at 5. This Court
held that because of the amendment made by the district court, “the indictment on which [Bain] was tried
was no indictment of a grand jury,” and that in the absence of a valid indictment returned by the grand jury,
“the court has no right to proceed any further in the
progress of the case.” Id. at 13. Based on Bain, the
dissent in Villamonte-Marquez took the view that
“[o]nce [an] indictment is dismissed, * * * this Court is
entirely without power to revive it, or the convictions or
sentences that arose out of it and died with it.” 462 U.S.
at 597-598. Respondent’s reliance on Bain and the
Villamonte-Marquez dissent is misplaced for two reasons.
a. The primary difficulty that respondent faces is
that a majority of the Court rejected the dissent’s view
of the implications of Bain in Villamonte-Marquez itself. See 462 U.S. at 581-582 n.2. The Court determined
that because “the judgment of conviction and the sentence” could be reinstated without “reinstatement of
the original indictment,” the intervening dismissal of
the indictment in that case did not render the case moot.
Id. at 581 n.2.
Respondent seeks (Br. in Opp. 6) to limit the majority’s reasoning to cases in which the dismissed indictment was “valid,” contending that “[w]here the indictment is invalid, however, it does not merge into the
judgment, and dismissal of the indictment moots the
case.” But neither the majority nor the dissent in

4
Villamonte-Marquez indicated that an indictment returned by the grand jury yet deemed deficient by the
lower courts fails to merge into a final criminal judgment reviewable by this Court, and respondent cites no
authority for such a principle. See ibid.
It is only because an invalid indictment merges into
the final judgment that a defendant can challenge the
indictment as invalid on appeal following conviction and
sentencing. See Parr v. United States, 351 U.S. 513,
518-519 (1956); Villamonte-Marquez, 462 U.S. at 581
n.2 (citing Parr, supra); see also Villamonte-Marquez,
462 U.S. at 597 (Brennan, J., dissenting) (observing that
the fact that an indictment merges into the final judgment explains why “the indictment can be attacked on
appeal from the conviction”). The distinction that the
Court in Villamonte-Marquez drew between that case
and Bain—which it recognized as “long ago limited to
its facts”—was that in Bain, the defendant had not been
tried on an indictment returned by a grand jury at all.
Villamonte-Marquez, 462 U.S. at 582 n.2; see also Bain,
121 U.S. at 13 (“[T]he indictment on which [Bain] was
tried was no indictment of a grand jury.”). Respondent
does not suggest any such error here.
b. Moreover, even if respondent had made such a suggestion, it would be unavailing in light of this Court’s decision in United States v. Cotton, 535 U.S. 625 (2002).
Bain’s holding was premised on the view that the
“change in the indictment deprived the court of the
power of proceeding to try the petitioner and sentence
him to the imprisonment provided for in the statute.”
Bain, 121 U.S. at 13 (emphasis added). But in Cotton,
this Court overruled Bain in relevant part, holding that
“defects in an indictment do not deprive a court of its
power to adjudicate a case.” 535 U.S. at 630; see id. at

5
631 (“Insofar as it held that a defective indictment deprives a court of jurisdiction, Bain is overruled.”).
Thus, even assuming that Villamonte-Marquez could
be read to permit respondent’s argument here, the argument would not have survived Cotton. Because “defects in an indictment do not deprive a court of its power
to adjudicate a case,” id. at 630, the defects that respondent identifies in the indictment here do not render
it “impossible for the Court to grant the government
any relief,” Resp. Br. in Opp. 5. This case accordingly
is not moot, and the Court should hold the petition for a
writ of certiorari pending a decision in Greer, supra,
then dispose of the petition as appropriate in light of
that decision.
* * * * *
The petition for a writ of certiorari should be held
pending this Court’s decision in Greer v. United States,
No. 19-8709 (argued Apr. 20, 2021), and then disposed
of as appropriate in light of that decision.
Respectfully submitted.
ELIZABETH B. P RELOGAR
Acting Solicitor General

APRIL 2021

